    OFFICE OF INSPECTOR GENERAL




Self-Assessment of the Commission’s Human Capital




               Inspection Report
                 OIG-IR-01-01




                                           February 14, 2001
           SELF-ASSESSMENT OF THE COMMISSION’S HUMAN CAPITAL




I.     INTRODUCTION

The United States International Trade Commission’s (Commission) greatest asset is its human capital.
How well the Commission performs its mission is closely related to how wisely the Commission
invests in its human capital and how closely it aligns its human capital with its strategic objectives.

As expressed in the GAO report entitled “Human Capital - A Self-Assessment Checklist for Agency
Leaders,” self-assessment is the starting point for creating “human capital organizations” - agencies
that focus on valuing employees and aligning their “people policies” to support organizational
performance goals. Part of the impetus for creating human capital organizations comes from the
Government Performance and Results Act (GPRA), which requires agencies to pursue performance-
based management, including strategic planning, results-oriented goal setting, and performance
measurement. One of the emerging challenges for agency leaders is to add to their traditional policy
portfolios an understanding of the importance of performance management issues, including human
capital issues, to the accomplishment of their agency’s’ policy and programmatic goals.

Although GPRA gives agencies the impetus for tailoring their human capital systems to their specific
missions, visions for the future, core values, goals and objectives, and strategies, it is up to the
agencies themselves to follow through on the opportunity. If high performance and accountability
depend on the three enablers - people, process, and technology - then it is useful, first and foremost,
for any agency to have a clear and fact-based understanding of its human capital situation. There is
no single recipe for successful human capital management. However, there are a number of human
capital elements and underlying values that are common to high-performance organizations. The
Commission, in seeking to comply with the spirit of performance-based management, should scan its
human capital systems to see if these elements have been addressed.

Another advantage to doing a human capital self-assessment is that it will help the Commission
understand the strengths and limitations of its human capital information systems. Any self-assessment
should be based, to the extent possible, on valid and reliable data regarding such matters as hiring,
diversity, retention, promotions, succession cycles, and performance incentives. These data can help
the agency develop a profile of its human capital, providing useful historical and prospective views.
Further, because sound human capital information can spotlight areas of concern before they develop
into crises, gathering these data is an indispensable part of effective risk management. Conducting a
human capital self-assessment gives the Commission an idea of the adequacy of the data currently
being gathered and of the gaps that may need to be filled.

The human capital self-assessment performed under this inspection is intended to provide a relatively
simple diagnosis, meant primarily to capture senior leaders’ views of the Commission’s human capital
policies and practices. The GAO is currently developing a supporting methodology that, while using
the same conceptual framework, will provide a more rigorous basis for human capital assessment.
This “maturity model” will enable the Commission to examine its human capital efforts through three
stages: analyze and plan, implement change, and evaluate and continuously improve.
Self Assessment of the Commission’s Human Capital                                          OIG-IR-01-01


II.     OBJECTIVE

The objective of this inspection is to conduct a human capital self-assessment for the Commission in
accordance with the guidelines contained in GAO Report OCG-00-14G, “Human Capital, a Self-
Assessment Checklist for Agency Leaders.”

III.    SCOPE AND METHODOLOGY

This inspection was conducted between November1, 2000 and January 5, 2001 at the Commission’s
Office in Washington, DC. Forty-eight of the Commission’s senior personnel were requested to
complete a 20-question multiple choice survey on various aspects of the Commission’s human capital
management relating to strategic planning, organizational alignment, leadership, talent and
performance culture. These questions were extracted from the GAO report cited above. In addition
to answering the questions, respondents were allowed to provide written comments.

Subsequent to receiving survey responses, the OIG interviewed Commission human resources
personnel and reviewed planning documentation to determine the presence of certain indicators which
were also provided in the GAO report regarding the effectiveness of the Commission’s human capital
management. Based on the information obtained, as well as the survey responses, the OIG developed
independent findings on the results of the human capital self-assessment.

We provided a draft of our inspection report to the Director of Personnel. His comments are
included in this report as Appendix II.

IV.     FINDINGS

The detailed findings from the human capital self-assessment are provided in Appendix I. The 20
survey questions are listed along with a chart summarizing the senior personnel’s responses to each
question, the OIG independent findings relating to each question and staff comments on the
questions. A summary of the most significant findings is as follows:

        Strategic Planning

The Commission’s Strategic Plan, Performance Plan and Performance Review documents do
acknowledge the importance of human capital. For example, the Strategic Plan contains the
statement that “The Commission recognizes that its human capital is its most valuable asset.”
However, these documents contain few specifics on a plan for future development and utilization of
the Commission’s human capital. This shortcoming was noted by OPM’s Oversight Review of
January 2000:

       ITC’s strategic plan acknowledges that Commission employees are critical to mission
       accomplishment. However, the agency has not yet developed goals, strategies and
       measures to insure that it effectively uses its human resources while abiding by the merit
       system principles.



                                                    2                          Office of Inspector General
                                                                       U.S. International Trade Commission
Self Assessment of the Commission’s Human Capital                                           OIG-IR-01-01


        Human Resources Organization

The Commission’s human resources organization is almost completely reactive, and not proactive in
its human capital approach. It does not participate in the Commission’s strategic planning. The
recruitment process is relied upon to identify the Commission’s human capital needs. Although large
amounts of human capital data are available in the personnel database, analysis and evaluation of the
data is very limited. Further, little or no effort has been made to identify “best practices” in other
similar organizations that could be applied to the Commission’s human capital management.

        Workforce Plan

The Commission lacks a workforce plan that attempts to identify its future workforce requirements,
its current workforce capabilities and a strategy for filling any gaps between future requirements and
current capabilities.

        Executive Succession Planning

Even though a potential tidal wave of retirements looms on the horizon, the Commission has done
very little succession planning. The Commission has not had an executive development program since
1994.

        Recruitment And Hiring

The Commission lacks a formal recruiting and hiring plan or any discussion of recruiting and hiring in
other Commission wide strategic or human capital planning documents. Job announcements provide
the only explicit link between the Commission’s recruiting efforts and the skill needs it has identified.

        Employee Training And Development

Although the Strategic Plan does discuss the need for employee training, the Commission lacks a
formal training and professional development strategy. The Commission does not have Individual
Development Plans for all employees. There are no indications that the Commission is making fact-
based determinations of the impact of its training and development programs and, where possible,
measuring the return on its investment

        Workforce Deployment

There is some discussion in the Commission’s strategic planning documents regarding its strategy for
effective and efficient deployment of its workforce to support organizational goals and objectives.
However, staff comments indicate a less than optimum workforce distribution within the Commission.




                                                    3                           Office of Inspector General
                                                                        U.S. International Trade Commission
Self Assessment of the Commission’s Human Capital                                         OIG-IR-01-01




        Compensation

The Commission has given no formal consideration to the various opportunities for making
compensation packages more competitive, such as repayment of student loans and financing of
education while on the job. The special pay rates recently approved for IT personnel offer
opportunities for modernizing the Commission’s workforce. Pay banding offers possibilities for
greater flexibility in compensation.


V.      CONCLUSIONS

Based on our findings, we conclude the following:

     1. The Commission’s strategic planning documents should provide a specific discussion of its
        human capital and how it is being aligned with the Commission’s shared vision and strategic
        objectives. The Commission’s human resources organization should participate in developing
        the strategic plan and should ensure that the plan incorporates the substance of its workforce
        plan.

     2. The Commission’s human resources organization should develop and annually update a
        workforce plan that gives explicit consideration to:

        $       Identification of future workforce requirements, current capabilities, and gaps that
                need to be filled.
        $       A recruiting and hiring strategy to fill identified workforce gaps.
        $       Workforce deployment.
        $       Executive succession plans.
        $       Employee training and development.
        $       Employee compensation.
        $       Employee performance incentives.
        $       Employee and labor relations.
        $       Workforce modernization.

     3. The Commission’s human resources organization should initiate a continuing program to
        collect analyze and evaluate data on workforce trends.

     4. The Commission’s human resources organization should periodically conduct benchmarking
        analyses to compare the Commission’s human capital programs and management with other
        similar, high-performing agencies.




                                                    4                         Office of Inspector General
                                                                      U.S. International Trade Commission
            Appendix I
DETAILED FINDINGS AND SURVEY RESPONSES
Appendix I - Self Assessment of the Commission’s Human Capital                                                                              OIG-IR-01-01


1.      Shared vision. Does the Commission have a clearly defined and well-communicated
“shared vision”- that is, a mission, vision for the future, core values, goals and objectives, and
strategies by which the Commission has defined its direction and its expectations for itself and its
people?



                                                                      Staff Responses to Question No. 1

                                              25                                                                23

                                              20
                           No. of Responses




                                              15
                                                                                                                                10
                                              10
                                                                                                    6
                                                                                    4
                                               5
                                                                     1
                                                        0
                                               0
                                                   No Response   Not At All    Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                           completely)
                                                                                        Responses




OIG Findings …

    •   The Commission’s Strategic Plan does contain a vision statement.

    •   There are no indications that the Commission has developed its shared vision with the
        involvement of clients and other stakeholders.

    •   Other than posting the Strategic Plan on the Intranet, there are no indications that the
        Commission has communicated and reinforced the relevance of its shared vision among all
        employees.




                                                                              A-1                                   Office of Inspector General
                                                                                                            U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                            OIG-IR-01-01


Staff Comments on Question No. 1

Ø Nothing is imparted by senior management. Morale is very low. Also, different expectations for
  different offices.

Ø The Commission needs to devote some thought to the likely nature of future requests, and fashion
  programs and vehicles that enable it to meet these requests. This has to happen on a practical
  level.

Ø But more time could/should be committed to this function-particularly communication.

Ø The Commission has made a considerable investment in the Strategic Plan (SP) and the SP
  process. Our budgeting and T&A accounting has been aligned with the SP and the Commission
  has made significant progress on many of the SP strategies. I feel that staff understands the
  “vision,” but the agency has not moved in the direction of routinely instructing staff on SP
  specifics.

Ø While we have a clearly defined and communicated vision the degree to which it is “shared” is
  open to question. I think our employees share the vision but it may only be a mini-version based
  on their work products or work area.

Ø To the extent consistent with its bipartisan, non-policy-making function.

Ø This is the case even without the need of a formal ITC Strategic Plan which merely enforces the
  well understood core valves.

Ø The Commission needs more focus on employee development starting at grades 6-9.
  Communication has improved between management and staff.

Ø Mission, core values are clear. Vision for the future, goals and objectives, and strategies not very
  clear.

Ø Mission, vision, etc. does not adequately describe what we do. Generally it is far too simple (as if
  setting very low goals that are easy to meet).

Ø Certainly the Commission has made strides toward a defined missionhow successful its
  communication has been is another issue.

Ø I believe the mission is clearer than the means. The mission is very clear.

Ø Commission has a “shared vision” but it is not well-communicated and as a consequence factors
  little into day-to-day operations.

Ø I believe that this varies among offices.




                                                  A-2                         Office of Inspector General
                                                                      U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                                                      OIG-IR-01-01


2.      Human capital focus. Has the Commission created a coherent human capital strategy-that is,
a framework of human capital policies, programs, and practices specifically designed to steer the
Commission toward achieving its shared vision-and integrated this strategy with the Commission's
overall strategic planning?

                                                                               Staff Responses to Question No. 2

                                                                                                                     14                 14
                                               15




                            No. of Responses
                                               10                                           8


                                                5        3                                                                                                     3
                                                                      2


                                                0
                                                    No Response   Not At All           Generally Not               Partially       Generally Yes   Definitely (or completely)

                                                                                                       Responses




OIG Findings…

    •   The Commission’s strategic plan and annual performance plan contain only superficial
        discussion of its human capital strategies. Alternatively, some agencies have a separate
        strategic human capital planning document.

    •   It appears from the Commission’s strategic plan and annual performance plans that the
        Commission does have an understanding that programmatic goals and strategies may create
        specific human capital needs that must be addressed if desired outcomes are to be
        accomplished.

    •   However, in general across the Commission, supervisory accountability for human capital
        issues is lacking. Human capital management does not appear to be a high priority and the
        extent of complete involvement of line managers and employees at all levels in creating a
        human capital focus varies by office.

    •   The Commission has not taken any efforts to assess the agency’s human capital management
        in light of its shared vision. Further, we have not seen any evidence of periodic reassessments
        as part of a continuous effort to evaluate and improve its human capital systems. More
        importantly, there is a need for established measures that provide meaningful data on the full
        range of human capital policies and practices and how these practices promote mission
        accomplishment.

    •   We found no indication that the agency has identified best practices or benchmarked elements
        of its human capital programs against high-performance organizations with similar missions
        and identified the constraints and flexibilities available to it.

    •   Finally, in our assessment of the personnel system we conclude the system has the capacity to
        provide relevant and reliable data for fact-based decision making on human capital, if this area
        is given more focus.

Staff Comments on Question No. 2

                                                                                A-3                                                    Office of Inspector General
                                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01




Ø Is there any strategy?

Ø I detect potential for improvement for this area and question nos. 1 and 3 as the Agency
  progresses in tying HR decisions to work productivity and activity figures.

Ø The Commission directs considerable attention and resources to developing staff and providing
  the tools and environment for meeting the Commission’s mission. Priorities include areas such as
  formal staff training, domestic and foreign fieldwork, cross-office work experiences, upward
  advancement, state-of-the-art IT tools, and an awards/recognition program.

Ø Our strategic plan recognizes the importance of our human capital but presents no clear overall
  strategy for policies and practices to achieve the vision.

Ø You do not define “human capital policies, programs, and practices,” so I don’t know how to
  answer this question.

Ø Training, travel, conferences/seminars, career development courses, fieldwork, and the objective
  of the “research program” all contribute in achieving the agency goals.

Ø We support training. My office develops goals, strategy, and vision with training an integral
  component. But I am not aware of an overarching Commission strategy.

Ø Without question no. 1, then this can’t really be better.

Ø Some offices are more attuned to this issue than others.

Ø Certain offices do, but I am not sure there is a consistent policy applied agency wide.

Ø I don’t know.




                                                  A-4                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                        OIG-IR-01-01


3.      Workforce planning. Does the Commission have an explicit workforce planning strategy,
linked to the Commission's strategic and program planning efforts, to identify its current and future
human capital needs, including the size of the workforce; its deployment across the organization; and
the knowledge, skills, and abilities needed for the Commission to pursue its shared vision?




                                                               Staff Responses to Question No. 3


                                        14                                                    13          13

                                        12
                     No. of Responses




                                                                             10
                                        10
                                         8
                                         6
                                         4        3            3
                                                                                                                           2
                                         2
                                         0
                                             No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                     completely)

                                                                                  Responses




OIG Findings…

    •   The Commission’s strategic and annual performance plans do not contain a discussion of
        workforce planning.

    •   The Commission does not have a separate workforce planning document linked to the
        Commission’s strategic and program planning.

    •   The Commission does not presently obtain data on a regular basis regarding such indicators as
        distribution of employees by pay level, attrition rates, retirement rates and projected
        retirement eligibility by pay level, and ratios of managers to employees.

    •   The Commission relies mainly on the recruitment process, not an agency wide planning
        process, to identify the roles and core competencies needed to support its goals and service
        delivery strategies.

    •   The Commission has not developed a knowledge and skills inventory that identifies current
        and future skills requirements and gaps that need to be filled.

    •   The Commission does not utilize benchmark comparisons with other agencies in such areas as
        skills, education levels, and geographic and demographic trends.




                                                                              A-5                                      Office of Inspector General
                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 3

Ø I don’t even know that there are any such efforts.

Ø Compound question.

Ø The Commission needs to devote some thought to the likely nature of future requests, and recruit
  and train individuals to meet these requests. This may require organizational change and resource
  reallocation within offices. It may also require that some thought be devoted to means of
  retaining people with the right KSAs.

Ø Within offices-less known about offices other than own or interactions between offices.

Ø The Commission annually considers staffing levels and allocation based on past experience and
  anticipated workload and goals; and office managers are aware of the KSAs required to achieve
  the work of the Commission.

Ø What do you mean by explicit? The budget, etc. identify some of these factors clearly; others are
  clearly stated by managers in the course of the planning process. Do you mean that all must be
  written down in one place? If the later, the answer is ‘partially’, if the former, definitely yes.

Ø KSA’s I believe are clear; existing and future resource needs tend to get caught up in short-term
  budget issues that hamper pursuit of agency goals.

Ø I have not seen or heard of any such strategy.

Ø I don’t know.

Ø I believe that human capital is very poorly deployed across the organization. Too many people
  poorly distributed so that some organizational units are under staffed.

Ø Ad hoc-no overall policy or guidance.

Ø No-one has let me know if it does.




                                                  A-6                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                        OIG-IR-01-01


4.      Integrating the “HR” function. Does the Commission rely on its “personnel” or “HR”
professionals-more appropriately called human capital professionals-to (1) contribute a human capital
perspective to the Commission's broader strategic planning process; (2) provide integrated mission
support, participate as partners with line managers, and reach out to other organizational functions
and components through facilitation, coordination, and counseling; and (3) lead or assist in the
Commission’s workforce planning efforts and in developing, implementing, and assessing human
capital policies and practices that will help the Commission achieve its shared vision?


                                                               Staff Responses to Question No. 4


                                        16                                   14
                                        14
                     No. of Responses




                                                                                                          12
                                        12                                                    10
                                        10
                                         8
                                         6
                                         4        3                                                                        3
                                                               2
                                         2
                                         0
                                             No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                     completely)

                                                                                  Responses




OIG Findings…

    •   There is no evidence that the agency’s human capital professionals are meaningfully involved
        in developing the agency’s shared vision or in aligning the agency’s human capital strategies
        with its strategic and program planning.

    •   There is no evidence that the agency’s human capital function has been defined to include a
        meaningful role in developing, implementing, and assessing the agency’s human capital
        strategies.

    •   There is evidence that the Commission’s human capital professionals are prepared—i.e.,
        through academic training, professional certification, or professional development
        opportunities—to fill the consulting role and to reach out to other organizational functions
        and components through facilitation, coordination, and counseling.

    •   There is evidence that the Commission’s human capital function effectively leverages external
        sources of human capital expertise as needed (e.g. DOI and OPM).




                                                                              A-7                                      Office of Inspector General
                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                            OIG-IR-01-01


Staff Comments on Question No. 4


Ø No planning-no human capital policies.

Ø The Personnel staff are more reactionary than they are planners.

Ø I do not know.

Ø Compound question. Commission “relies” but do HR professionals succeed?

Ø I’ve seen recent improvement in this area.

Ø But HR is small.

Ø I work closely with Personnel on day-to-day needs including training, awards, employee
  assistance, recruitment, and “problem” employees. Long term workforce planning has not been a
  significant focus of our work with Personnel.

Ø Personnel can be helpful in specific instances but are not in anyway proactive in their relationship
  with staff.

Ø I don’t know what role “HR” professionals have in strategic planning as I’m not on that
  committee. What do you mean by “participate as partners with line managers.” Since you
  haven’t said what a human capital policy is, I don’t know that the last option means either.

Ø Very strong and involved in (2). Unaware of efforts regarding (1) and (3).

Ø Tend to use personnel office to ensure recruitment and evaluation criteria are met.

Ø I don’t know.

Ø For more senior level positions, Personnel is used most productively in this regard.

Ø The HR personnel are excellent, but their service is focused on implementation of HR situations
  and policies, not planning.




                                                  A-8                         Office of Inspector General
                                                                      U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                       OIG-IR-01-01


5.       Defining leadership. Has the Commission defined the kind of leaders it wants (i. e., their
roles, responsibilities, attributes, and competencies) and the broad performance expectations it has for
them in light of the Commission's shared vision?



                                                               Staff Responses to Question No. 5


                                        20                                                               18
                                        18
                                                                                             15
                     No. of Responses


                                        16
                                        14
                                        12
                                        10
                                         8                                   6
                                         6
                                         4        2                                                                       2
                                                               1
                                         2
                                         0
                                             No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                    completely)

                                                                                 Responses




OIG Findings…

    •   The Chairman has recently requested SES personnel to submit work plans for themselves.

    •   Elements and Standards in individual performance plans are used to align leader’s
        performance expectations with the Commission’s shared vision.

    •   There are no articulated leadership standards other than SES core competencies that the
        Commission uses in making hiring and executive development decisions.

    •   The Commission does not make use of benchmarks for executive-level performance
        management at organizations with similar missions and circumstances.




                                                                              A-9                                     Office of Inspector General
                                                                                                              U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 5

Ø No planning here.

Ø “Somewhat” would be a more descriptive term in this instance.

Ø Compound. Position descriptions etc. , but that is not what you are looking for is it?

Ø Only in the context of position descriptions and position announcements on a position-by-position
  basis.

Ø The Commission does have opinions on the type of leaders it wants, and has clearly demonstrated
  this on several recent senior level recruitments. However, I am not aware of this being
  formalized.

Ø To the extent it can be discerned from the goals and objectives set forth in the strategic plan.

Ø I sense we are to make it up as we go along, and get along.

Ø It’s clear that the Commission wants overly active (i.e. lots of review) for many areas but not
  clear on others.

Ø The expectations change as the composition of the Commission changes and the Chairmanship
  rotates.

Ø Other than by the actual selection of these individuals for leadership positions.

Ø Not to my knowledge, but I don’t know what the Commissioners or senior staff think.




                                                 A-10                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                           OIG-IR-01-01




6.      Teamwork and communications. Do senior leaders pursue an explicit strategy to promote
teamwork, communicate the Commission's shared vision in clear and consistent terms to all levels of
the organization, and receive feedback from employees?



                                                                  Staff Responses to Question No. 6


                                           25
                                                                                                             20
                        No. of Responses



                                           20

                                           15
                                                                                10               10
                                           10

                                            5                                                                                 3
                                                                  1
                                                     0
                                            0
                                                No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                        completely)

                                                                                     Responses




OIG Findings…

    •   Teamwork is promoted by the nature of the Commission’s tasks, which involve multi-faceted
        investigations requiring assistance from several different offices.

    •   Monthly staff meetings also promote teamwork to a limited extent.

    •   Employee Suggestion Program promotes feedback from employees

    •   Office of Personnel does not interview exiting employees.

    •   There is no internal marketing program to promote the Commission’s shared vision.

    •   A Recent OPM survey of the Commission provided results of focus groups/employee surveys.




                                                                           A-11                                      Office of Inspector General
                                                                                                             U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                             OIG-IR-01-01


Staff Comments on Question No. 6


Ø Senior leaders do not lead-in fact, senior leaders do little work!

Ø Depends on manager, some are much better than others.

Ø No across office lines.

Ø Compound.

Ø I believe senior managers are receptive to feedback. More effort should be put into sharing senior
  managements’ vision.

Ø But more top level interaction with employees could increase a top to bottom commitment.

Ø Almost all Commission investigative work involves multi-person investigative teams and
  considerable attention is devoted to ensuring the smooth operation of these teams. I receive
  frequent feedback from employees on team successes and failures and address problems as
  appropriate. Care is also taken when teams are constructed so as to ensure success.

Ø Senior managers tend to work well together but we still think along the line of “office” needs
  rather than Commission “vision.”

Ø Within our office, generally yes; outside our office, in some divisions the answer is generally yes,
  in others generally not.

Ø This occurs in OP/ID through levels of experience/training in project coordination and leadership
  responsibilities; team meetings, post-project assessment memos, and one-to-one feedback and
  discussion on specific assignments.

Ø I don’t sense a general strategy-but there is a tendency to emphasize the need for, and benefits of
  teamwork. In my unit we implemented a strategic planning effort, we meet to discuss our goals
  and objectives, and develop a shared vision. Staff seem very skeptical-partly because they
  weren’t involved in past efforts and partly because no one else is doing it.

Ø Mostly are problem solvers rather than planners; cannot prevent problems from occurring.

Ø I believe most of them try-with varying results.




                                                 A-12                          Office of Inspector General
                                                                       U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                        OIG-IR-01-01


7.     Ensuring continuity. Does the Commission take steps to ensure reasonable continuity of
leadership through executive succession planning?



                                                               Staff Responses to Question No. 7


                                        16                                   15
                                                                                                          14
                                        14
                     No. of Responses

                                        12                                                    10
                                        10
                                         8
                                         6
                                         4        2            2
                                         2                                                                                 1

                                         0
                                             No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                     completely)

                                                                                  Responses




OIG Findings…

    •   The Commission has no formal succession plan.

    •   Recent Office of Personnel retirement survey applies to succession planning.

    •   The Commission has had no executive development program since 1994. However, the
        Commission may be too small for such a program.

    •   Technical competencies for SES positions represent selection criteria for executive candidates
        that are specifically linked to the agency’s shared vision and the competencies and broad
        expectations it has for its leaders

    •   The Commission is gathering information about once a year on an ad hoc basis on attrition
        rates, retirement eligibility and retirement rates of its executives.

    •   The Commission does not gather statistics on the percentage of leaders brought in through
        external recruitment or promoted internally. These statistics may not be needed for such a
        small organization.




                                                                             A-13                                      Office of Inspector General
                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 7

Ø Nothing is done for GS-15 managers-absolutely nothing-everything on favoritism.

Ø Training for rising managers acting in absence.

Ø But could be probably be more formalized and thus more efficient.

Ø While the Commission no longer has a formal executive training program, there are significant
  opportunities for non-executive staff to lead major projects, act in managerial roles, and receive
  management training.

Ø The Commission-i.e. the Commissioners’-don’t do this.

Ø I see no real human resource program for employees to network with EEO, Personnel or
  management which would provide avenues of challenge for staff promotions.

Ø I think Commission staff/leadership has an informal process-which may be perceived as, and
  indeed may be-favoritism. I see no broad based management /leadership training efforts in place
  which would help develop a broader pool of talent. This can be expensive-but worth it. Also,
  technical expertise and loyalty appears to be valued over management and leadership skills.

Ø Executive development has been all but eliminated from within.

Ø Not to my knowledge, but I might not be privy to this.




                                                 A-14                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                            OIG-IR-01-01




8.      Recruiting and hiring. Does the Commission have a recruiting and hiring strategy that is
targeted to fill short and long-term human capital needs and, specifically, to fill gaps identified
through its workforce planning efforts?




                                                                  Staff Responses to Questions No. 8


                                            16                                                    14
                                            14                                                                13
                         No. of Responses




                                            12                                   10
                                            10
                                             8
                                             6
                                             4                     3                                                           3

                                             2        1

                                             0
                                                 No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                         completely)

                                                                                      Responses




OIG Findings…

    •   The Commission has no formal recruiting and hiring plan or any discussion of recruiting and
        hiring in other agency wide strategic or human capital planning documents.

    •   Job announcements provide the only explicit link between the Commission’s recruiting efforts
        and the skill needs it has identified.

    •   The Commission does have a recruiting program with involvement and participation of senior
        leaders and line managers. Example is current trip to New Orleans seeking Economics
        candidates.

    •   Managers indicate that recruits are of sufficient quality, but that the hiring process takes too
        long.

    •   The Office of Personnel is currently compiling statistics on the average time taken to recruit
        and hire.

    •   Commission leaders are actively overseeing recruiting and hiring programs to ensure fair and
        unbiased hiring. The Commission is gathering demographic statistics on the agency’s
        diversity profile over time.




                                                                            A-15                                     Office of Inspector General
                                                                                                             U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 8


Ø No-no planning.

Ø Depends on Office.

Ø Compound.

Ø But could sharpen even further mechanisms to accomplish strategy.

Ø Each Office manager is provided some flexibility in how they use vacant slots, depending on
  future needs. All recruitment requests must ultimately be approved by the Chairman.

Ø I think it has a recruit and hiring strategy. I don’t know if it fills gaps identified through
  workforce planning efforts because I don’t know what you mean by that. Specific offices do this.
   The Commission wide process is basically a matter of placing arbitrary hiring freezes in place
  without regard to capital needs.

Ø Yes, but workforce planning is frustrated by bureaucratic delays in some instances.

Ø I am not familiar with recruit/hire strategy in most other offices. This gets tied into budget
  process too.

Ø Individual units maybut I generally haven’t seen a broad based e ffort. In my unit we use the
  developing strategic plan an assessment of human capital gaps in the context of that plan to make
  recruitment decisions.

Ø Again simply a reaction to vacancies-have serious concerns about loss of in-house expertise that
  will be real impossible to recruit for given current shortcomings in agency/government personnel
  constraints.

Ø It had a successful strategy for sunset. It is more difficult to do that through less predictable
  peaks and valleys.

Ø I see no real human resource program for employees to network with EEO, Personnel or
  management that would provide avenues as challenge for staff promotion.




                                                 A-16                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                             OIG-IR-01-01


9.     Training and professional development. Does the Commission make appropriate
investments in education, training, and other developmental opportunities to help its employees build
the competencies needed to achieve the Commission's shared vision?


                                                                     Staff Responses to Question No. 9

                                          30
                                                                                                               24
                       No. of Responses   25
                                          20
                                          15
                                                                                                  8                             9
                                          10
                                          5                      1                2
                                                    0
                                          0
                                               No Response   Not At All      Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                          completely)

                                                                                      Responses



OIG Findings…

    •   Although the Strategic Plan does discuss the need for employee training, the Commission
        lacks a formal training and professional development strategy.

    •   The Commission does not have Individual Development Plans for all employees.

    •   The Commission has adequate opportunities for career advancement, an equitable promotion
        system, and career ladders that take into account the agency’s technical and
        supervisory/managerial needs.

    •   Presently, there is no explicit link between the agency’s training offerings and curricula and
        the competencies identified by the agency for mission accomplishment.

    •   There are no indications that the Commission is making fact-based determinations of the
        impact of its training and development programs and, where possible, measuring the return on
        its investment.

    •   There is evidence that employees are encouraged to identify and take advantage of training
        and professional development activities and that the available training is relevant and
        professionally rewarding.

    •   Budget documents indicate the percentage of the Commission’s operating budget spent on
        training, but there are no benchmark comparisons being made with other, similar agencies.




                                                                             A-17                                      Office of Inspector General
                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 9


Ø Nothing for GS-15 managers-no programs, policies etc. for investments in skills unless you are a
  favorite of a senior manager.

Ø Training resources for OIS have not been a problem. Correlation to shared vision is sorely
  lacking.

Ø But could use more training funds.

Ø As noted above, the Commission devotes significant attention to employee development through
  formal training, domestic and foreign fieldwork, cross-office work experiences, and details to
  USTR. Another important training technique is the assignment of junior staff to investigative
  teams for OJT with an experienced project leader.

Ø We’re willing to put up the money, but have no particular guidance to managers on how it can be
  best used to achieve a shared vision.

Ø Done on an office-by-office basis.

Ø Based on experience in my office.

Ø Training is generally viewed favorably, but is under funded and often, though not always, a bit ad
  hoc.

Ø Again this varies by office and manager.

Ø Not focused on pressing agency needs and constrained by budget process.

Ø But there are some glaring gaps.




                                                 A-18                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                           OIG-IR-01-01




10.    Workforce deployment. Is the deployment of the Commission's workforce appropriate to
mission accomplishment and keyed to efficient, effective, and economic operations?

                                                                   Staff Responses to Question No. 10


                                        30                                                                   28

                     No. of Responses   25

                                        20

                                        15
                                                                                               10
                                        10

                                        5                      2               2                                              2
                                                  0
                                        0
                                             No Response   Not At All     Generally Not     Partially   Generally Yes   Definitely (or
                                                                                                                        completely)

                                                                                   Responses




OIG Findings…


    •   There is no discussion of workforce deployment in the agency’s workforce plan or other
        strategic planning documents, with decisions based on ensuring that the workforce is
        deployed appropriately to support organizational goals and strategies.

    •   The budget process gives consideration to human capital management issues relating to the
        use of contractors, including whether the agency has the expertise available to manage the
        cost and ensure the quality of activities that have been outsourced.

    •   There are indications that the Commission makes flexible use of its workforce, putting the
        right employees in the right roles according to their skills, relying on staff drawn from various
        organizational components and functions, and using “just-in-time” or “virtual” teams to focus
        the right talent on specific tasks. A recent example is Sunset Reviews.




                                                                               A-19                                       Office of Inspector General
                                                                                                                  U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                             OIG-IR-01-01




Staff Comments on Question No. 10

Ø Offices DO NOT work together. Senior management does not lead.

Ø Some offices have excess capacity.

Ø Some employees and work groups are overworked and stressed out while others have little to do.
  ID is an example.

Ø There is room for improvement.

Ø Compound.

Ø But not as the result of a comprehensive master-plan; this is the result of the individual efforts of
  individual managers.

Ø The allocation of the workforce generally seems appropriate; plus a significant portion of
  Commission staff are flexible in that they can perform in multiple capacities–as commodity
  analyst, economist, or investigator. This flexibility permits the Commission to move people as
  needed to deal with temporary workload shifts such as the transition sunset reviews.

Ø I’ve seen a recent tension between offices that, if left untreated, can hinder our effectiveness.

Ø Greater flexibility and commitment by managers to recognize the need for shifts of resources
  would contribute to this objective.

Ø While I say generally yeswe get the job done, and well, I’m not sure if we are as productive as
  possible. All workforce resources are essentially controlled by Director of Administration. Front-
  line office Directors have little flexibility in the use of these resources–incentives (i.e. access to
  resources) favor filling existing positions if allowed, otherwise one has to convince a skeptical
  Director of Administration who often is unfamiliar with specific office requirements, regarding
  alternative use of resources.

Ø I believe that human capital is very poorly deployed across the organization. Too many people
  poorly distributed so that some organizational units are under staffed.

Ø Deployment depends a good deal on the predisposition of the Chairman and varies over time.

Ø Very good in some instances; very poor in others. One major problem is that you cannot fire the
  people you need to fire.

Ø Resources are not always committed to priority needs and serious inertia to bringing resources to
  bear on changing requirements.




                                                 A-20                          Office of Inspector General
                                                                       U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                                OIG-IR-01-01




11.      Compensation. Does the Commission’s compensation system help it attract, motivate,
retain, and reward the people it needs to pursue its shared vision?


                                                                Staff Responses to Question No. 11

                                        25                                                                     21
                     No. of Responses

                                        20

                                        15
                                                                             9                  10
                                        10
                                                               3
                                        5                                                                                          1
                                                  0
                                        0
                                             No Response   Not At All   Generally Not         Partially   Generally Yes      Definitely (or
                                                                                                                             completely)

                                                                                  Responses




OIG Findings…


    •   There are indications that the Commission has examined its compensation system and
        considered changes in light of its human capital needs, including skills-based compensation,
        and identified relevant constraints and flexibilities. At present the Commission has seen no
        need for change.

    •   The special pay rates recently approved for IT personnel offer opportunities for modernizing
        the Commission’s workforce.

    •   Pay banding could offer more compensation flexibility, if approved by Congress.

    •   The Commission has given no consideration to the various opportunities for making
        compensation packages more competitive, such as repayment of student loans and financing
        of education while on the job.

    •   The Commission has sought no feedback from recruits to whom hiring offers have been made.

    •   The Commission has not sought information from employee surveys or focus groups.

    •   The Commission does make use of quality step increases, bonuses and spot awards.

    •   The Commission does not make benchmark comparisons of its compensation system with
        other organizations and does not make use of information from Bureau of Labor Statistics’
        Occupational Outlook Handbook on average salary and projected demand for given
        occupations.




                                                                                 A-21                                             Office of Inspector General
                                                                                                                          U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                             OIG-IR-01-01


Staff Comments on Question No. 11


Ø As a general rule the best workers stay only a short time at the Commission, mediocre workers
  are the ones who remain.

Ø Need for GS-14's in Office of Industries-Economist DO NOT work with Industries-Investigators
  do not work with analysts.

Ø Depends on occupation. Lawyers and PhD Economists generally paid below market wages.

Ø This is a factor over which the agency has little control as a Federal facility.

Ø The Commission does not in my experience have a problem attracting the right talent, but it
  motivates, retains, and rewards individuals poorly.

Ø But excellent employees can quickly top-out; can then be difficult to retain.

Ø We are able to hire top quality entry level analysts. Further, it is possible to promote good staff at
  a fairly quick rate. However, we have had significant turnover of analysts, with staff generally
  able to find higher paid positions within and outside of the Government.

Ø I think we can still attract, especially at an entry level. Retention and higher level placements are
  a problem.

Ø There are likely more innovative ways of ensuring this.

Ø Answering from my office perspective-this is a federal government problem-not a HR problem
  per se with lawyer and executive compensation.

Ø Our salaries and grade structure make it increasingly difficult to recruit and retain people in our
  highly competitive field. I often emphasize other factors, and request above minimum step
  appointments.

Ø Salary levels are below current rates for existing skill levels now extant. Generally for non-
  supervisory position should be higher.

Ø It depends very much on the position. While ITC is relatively generous in government terms,
  government salaries are not competitive for certain positions.




                                                 A-22                          Office of Inspector General
                                                                       U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                       OIG-IR-01-01


12.     Employee-friendly workplace. Does the Commission provide the flexibilities, facilities,
services, and work/life programs to help it compete for talent and enhance employee satisfaction and
commitment to the Commission and its shared vision?



                                                              Staff Responses to Question No. 12


                                        30
                                                                                                         24
                     No. of Responses


                                        25

                                        20

                                        15

                                        10                                                   8                            8

                                         5                                   3
                                                  0            1
                                         0
                                             No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                    completely)

                                                                                 Responses




OIG Findings…

    •   The commission does make efforts to promote a more flexible workforce, including
        consideration of flexible work schedules (i.e., part-time work arrangements and flex-time),
        flexiplace, and business-casual dress. The Commission does not promote job sharing.

    •   The Commission does make available career counseling and development services.

    •   The Commission provides parking and mass transit subsidies to its employees.

    •   The Commission does make use of benchmarking data on these practices from high-
        performing public and private sector organizations with comparable missions and
        circumstances.




                                                                             A-23                                     Office of Inspector General
                                                                                                              U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                        OIG-IR-01-01




Staff Comment on Question No. 12


Ø None of this-no one cares.

Ø To the extent that its budget and space allow both of which are limited.

Ø Compound.

Ø But could use a flex work place program.

Ø The Commission offers training and travel opportunities, work on a wide range of projects,
  leadership opportunities, outside assignments, exposure at all levels of operation, rapid
  advancement within a job series, nice office facilities, and state-of-the-art IT tools.

Ø When needs develop, the Commission is responsive but not particularly proactive in anticipating
  needs.

Ø The trend over the years has been to make time keeping and leave use more and more
  bureaucratic. The impetus for this approach has come from the IG’s office and the Office of
  Administration. The trend, however, deprives us of one our few advantages over a private law
  firm environment.

Ø This area has improved due to Commission Chairmanship changes over the last 5 years.

Ø Generally yes-one of the non pay and grade factors I emphasize. I do think the Commission
  should move more aggressively to more work at home and mobile computing environments.

Ø Among government agencies it would get fairly high marks. That is less clear with regard to the
  private sector.

Ø Within constraints of size (e.g. day care), location (parking expense); government regulations
  (sodas, parties, etc.).




                                                 A-24                     Office of Inspector General
                                                                  U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                             OIG-IR-01-01



13.     Performance management. Is the Commission's performance management system designed
to improve individual and team performance and to steer the workforce toward embodying and
effectively pursuing the Commission's shared vision?



                                                                   Staff Responses to Question No. 13


                                             25
                                                                                                               20
                          No. of Responses

                                             20

                                             15
                                                                                  10               10
                                             10

                                              5                     3
                                                                                                                                1
                                                       0
                                              0
                                                  No Response   Not At All   Generally Not    Partially   Generally Yes   Definitely (or
                                                                                                                          completely)

                                                                                       Responses




OIG Findings…

•   USITC Directive 4202, Performance Management System, provides a description of the design and intent of
    the Commission’s performance management system, with explicit emphasis on performance improvement
    and on linking individual and team performance to the agency’s shared vision.

•   The Commission’s Performance Management System takes account of varied performance considerations,
    such as client demands, resource limits, technology use, and level of effort; and explicit performance-based
    rewards and consequences

•   The Commission’s Performance Management System describes how employees’ performance expectations
    are to be aligned with the competencies and performance levels needed to support the agency’s mission, goals
    and objectives, and strategies;

•   The Commission’s Performance Management System is intended to establish valid, reliable, results-oriented
    measures of individual and group performance

•   The Commission’s Performance Management System is intended to provide ratings and feedback that
    meaningfully differentiate among performers and provide the basis for effective performance incentives.

•   Although very few non-performers have been formally identified within the Commission, there are
    indications that non-performers are held accountable. Commission leaders support managers and supervisors
    who give employees frank and constructive feedback on their performance—including, to the extent
    appropriate, their performance relative to that of their peer group— and take performance actions where
    appropriate.

•   A recent OPM review of ITC personnel has provided an analysis of employee performance ratings data
    (mean, mode and standard deviation).

•   The Commission receives anecdotal feedback from managers and staff on the meaningfulness and
    effectiveness of the performance management system and its return on investment.

                                                                             A-25                                      Office of Inspector General
                                                                                                               U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                             OIG-IR-01-01


Staff Comments on Question No. 13


Ø By the way, what is the vision?

Ø A pay band system would probably work well given the nature of our work.

Ø Compound “designed” but does it work?

Ø Office Directors should make greater effort to articulate the goals and standards of offices, and
  hold line managers to them.

Ø Still some reality gap between civil service “rules” and performance management.

Ø Performance plans and criteria are not related to strategic plans.

Ø The performance management system is tailored to the Commission’s needs and does steer
  workforce in right direction. In general, however, I’m not convinced that annual performance
  systems are strong tools.

Ø Government performance management systems are generally ineffective in motivating
  individual/team performance.

Ø Again-problems stem from federal government system, which makes it much more difficult to
  terminate poor performers and limits rewards to high performers.

Ø Too many outstanding performance reviews make meaningful performance assessment difficult-
  outstanding suggests no room for improvement. In my review (not outstanding) I received little,
  if any, input as to how to improve-no discussion of strengths or weaknesses. Just nice job, keep it
  up. Well, gee, thanks.

Ø Very inconsistent in awards and such.

Ø The performance management system is fairly useless and applied variously by the various offices.

Ø I’m sure it was designed to, but I think the RIFs discredited it.




                                                 A-26                          Office of Inspector General
                                                                       U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                             OIG-IR-01-01




14.  Performance incentives. Are meaningful performance incentives in place to support the
Commission's performance management system?


                                                             Staff Responses to Question No. 14

                                                                                                            15
                                     16
                                                                                              13
                  No. of Responses

                                     14
                                     12
                                     10                                   8
                                      8
                                                                                                                              5
                                      6
                                      4                     2
                                               1
                                      2
                                      0
                                          No Response   Not At All   Generally Not         Partially   Generally Yes    Definitely (or
                                                                                                                        completely)

                                                                               Responses




OIG Findings …


    •   To some extent, incentives are clearly and meaningfully linked to the performance
        management system and incentives are results-oriented, client-based, realistic, and subject to
        balanced measures that reveal the multiple dimensions of performance.

    •   The Commission receives anecdotal feedback from managers and employees on the equity,
        adequacy, and effectiveness of the agency’s performance incentives system.

    •   The Commission collects data on its investments in bonuses, spot awards, and other tangible
        incentives over time.

    •   The Commission does not conduct benchmarking against high-performance organizations
        with similar missions and circumstances.




                                                                                A-27                                           Office of Inspector General
                                                                                                                       U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                            OIG-IR-01-01


Staff Comments on Question No. 14

Ø Not enough rewards for the very best workers at the GS-13 level and below; mediocrity is
  rewarded, not consistently high achievement.

Ø Performance incentives are non-existent.

Ø Too often, awards and advancement are not tied directly to performance but are simply “split up”
  among all members of an office using some arbitrary criteria, such as salary level, years in service,
  etc.

Ø The performance award system is at least as generous, in most instances better, than other
  agencies with, which I am familiar.

Ø There are too few ways to reward exceptional performance.

Ø Reward system is excellent.

Ø There is a monetary award system in place that is geared to performance level, but the award
  levels may not be sufficient to act as a meaningful incentive. Promotions and assignments are
  somewhat dependent on performance levels.

Ø We are very generous with awards but I question whether they are viewed as “incentives” for
  improved performance or just an additional form of deserved compensation.

Ø The vast majority expect a piece of the pie. In the other agencies I worked at far lower
  percentage of employees received recognition-since it was rare it was far more meaningful.

Ø Evaluation inflation is too strong.

Ø There are meaningful incentives-I don’t necessarily see them as supporting the overall
  performance management system.

Ø There are limits on incentives government can offer. ITC does well within that context.

Ø Within budget limits and government regulations.




                                                 A-28                         Office of Inspector General
                                                                      U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                       OIG-IR-01-01


15.   Continuous learning and improvement. Does the Commission encourage and motivate
employees to contribute to continuous learning and improvement?


                                                              Staff Responses to Question No. 15


                                        18                                                               17
                     No. of Responses   16
                                        14                                                   13

                                        12
                                        10
                                         8                                                                                7

                                         6                                   5

                                         4
                                         2        1            1

                                         0
                                             No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                    completely)

                                                                                 Responses




OIG Findings…

    •   The Commission does have an active knowledge management effort featuring programs and
        tools for sharing information and creating institutional knowledge that can be readily retrieved
        by or disseminated to staff.

    •   The Commission provides ongoing opportunities, such as the employee suggestion program,
        for employees to contribute their views on the agency’s shared vision and strategies for
        achieving it, including innovative ideas and process improvements.

    •   The Commission does not obtain feedback from employees on their perceptions of the
        organization’s learning environment.

    •   The Commission does not make any effort to identify best practices in continuous learning
        and knowledge management among organizations with comparable missions and service
        requirements.




                                                                             A-29                                     Office of Inspector General
                                                                                                              U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 15

Ø The Commission directs considerable attention and resources to developing staff and providing
  the tools and environment for meeting the Commission’s mission. Priorities include areas such as
  formal staff training, domestic and foreign fieldwork, cross-office work experiences, upward
  advancement, state-of-the-art IT tools, and an awards/recognition program.

Ø While the Commission no longer has a formal executive training problem, there are significant
  opportunities for non-executive staff to lead major projects, act in managerial roles, and receive
  management training.

Ø As noted above, the Commission devotes significant attention to employee development through
  formal training, domestic and foreign fieldwork, cross-office work experiences, and details to
  USTR. Another important training technique is the assignment of junior staff to investigative
  teams for OJT with an experienced project leader.

Ø The Commission offers training and travel opportunities, work on a wide range of projects,
  leadership opportunities, outside assignments, exposure at all levels of operation, rapid
  advancement within a job series, nice office facilities, and state-of-the-art IT tools.

Ø No need for knowledge here-so why improve?

Ø But sometimes employees expect “rewards” which may not be forthcoming-can create a morale
  problem.

Ø I don’t see any evidence that the Commission considers this a priority item.

Ø How can we improve we are already outstanding-or we don’t get a clear list of strengths and
  weaknesses in our review. However, we do support training, if ad hoc.

Ø As an overall policy.

Ø Within given budget constraint, training is actively encouraged and for many (especially new
  employees) required.




                                                 A-30                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                        OIG-IR-01-01


16.     Managers and supervisors. Are managers and supervisors expected, prepared, and trained
to help steer the workforce toward the pursuit of the Commission's shared vision?


                                                               Staff Responses to Question No. 16


                                          25                                                               22
                       No. of Responses
                                          20

                                          15
                                                                                             11
                                          10
                                                                               6
                                          5                                                                                3
                                                    1            1
                                          0
                                               No Response   Not At All   Generally Not   Partially   Generally Yes Definitely (or
                                                                                                                    completely)

                                                                                   Responses




OIG Findings…

    •   There are indications that selections, promotions, and performance evaluations are based to a
        significant extent on the human capital competencies needed to support the agency’s shared
        vision.

    •   The Commission makes available and requires training in legal responsibilities of supervisors
        and “people skills,” such as employee motivation and conflict avoidance and resolution.

    •   Based on recent OPM survey, the Commission has received feedback from employees on the
        extent to which managers and supervisors show leadership in support of the Commission’s
        shared vision and in motivating and enabling all employees to pursue it.

    •   The Commission does not employ 360-degree appraisals of its managers and supervisors.




                                                                              A-31                                        Office of Inspector General
                                                                                                                  U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                          OIG-IR-01-01


Staff Comments on Question No. 16

Ø What is the vision?

Ø I am told by staff that extreme rivalry and competitiveness exists (e.g. Division v. Division) and
  they are discouraged from assisting across organizational lines.

Ø Compound.

Ø There are individual managers who do this, but generally not.

Ø Objectivity, timeliness, continuous development of trade expertise, and responsiveness to USTR
  and Congress are qualities that are constantly emphasized by managers and supervisors. They are
  a long standing part of Commission culture. But, as noted above, the agency has not moved in
  the direction of routinely instructing staff on SP specifics.

Ø This is a function of individual managers.

Ø I do not have enough familiarity with managers in many offices in the Commission to answer on
  an agency-wide basis.

Ø Managers could use additional training in the area of EEO policies and some people personal
  skills. We still need help in this area.

Ø Management, while generally effective, seems based on personality or authority of the position-as
  opposed to a thoughtful set of leadership skills. I don’t see evidence of much preparation or
  training-though I see expectations.

Ø I believe we are constantly making studies toward this direction.

Ø Focus is more on finite goals as opposed to guiding “vision.”




                                                 A-32                       Office of Inspector General
                                                                    U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                       OIG-IR-01-01



17.        Job processes, tools, and mission support. Are job processes, tools, and mission support
structures tailored to help employees effectively, economically, and efficiently pursue their work?




                                                              Staff Responses to Question No. 17


                                        30
                                                                                                         24
                                        25
                     No. of Responses




                                        20

                                        15
                                                                                             10
                                        10
                                                                                                                          5
                                         5                                   3
                                                  1            1
                                         0
                                             No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                    completely)

                                                                                 Responses




OIG Findings…

    •   In general, decisions involving new core business processes, strategies, and tools have been
        designed to support quality, productivity, and accountability.

    •   The Commission has not considered alternative approaches and tools drawn from “best
        practice” organizations with similar missions.

    •   Performance ratings and testimonial evidence indicate that employees generally believe that
        their job processes and tools effectively support their efforts.

    •   The Commission has in place mission support structures and strategies that are based on input
        from managers and staff both in mission and mission support roles and that recognize the
        contributions of all agency employees in building the value of the organization to its clients.




                                                                             A-33                                     Office of Inspector General
                                                                                                              U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                           OIG-IR-01-01


Staff Comments on Question No. 17

Ø Poor senior management leads to poor work processes.

Ø Compound.

Ø Inter-office rivalries are usually effectively dealt with.

Ø There are individual managers who do this, but generally not.

Ø There are numerous support systems for employees, including immediate supervisors, senior
  analysts, OJT as junior team members, process manuals, on-line aids of all types, and state-of-the-
  art IT systems.

Ø When necessary we can pull together the processes, tools, etc. to meet project demands but we
  don’t seem to plan for this.

Ø The OP data manager makes a significant contribution to ID probable effects studies and the
  DataWeb significantly contributes, as well as initiatives by others.

Ø Question is awfully broad and rather vague-hard to respond to this.

Ø Concerned about amount of “re-work” due to poor planning/oversight, as well as late receipt of
  information and other factors beyond control.

Ø I think this varies widely from office to office.




                                                 A-34                        Office of Inspector General
                                                                     U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                               OIG-IR-01-01




18.    Information Technology. Are employees making the best use of information technology to
perform their work and to gather and share knowledge?

                                                                       Staff Responses to Question No. 18




                        No. of Responses   35                                                                    31
                                           30
                                           25
                                           20
                                           15
                                           10                                      4               6
                                                                                                                                  3
                                            5        0            0
                                            0
                                                No Response   Not At All      Generally Not     Partially   Generally Yes   Definitely (or
                                                                                                                            completely)

                                                                                       Responses




OIG Findings…

    •   The Commission has an IT plan which attempts to align its information technology programs
        with its mission, goals, and strategies.

    •   The Commission does receive feedback from employees as to whether they have the
        opportunity, incentives, support, and training to make the appropriate use of technology to do
        their work and to acquire and share knowledge.

    •   The Commission does not collect and analyze data on the agency’s investments—financial
        and human—in information technology over time and the return on these investments in terms
        of economy, efficiency, and service delivery.

    •   The Commission does not perform benchmarking against organizations with similar missions
        and service requirements.




                                                                            A-35                                      Office of Inspector General
                                                                                                              U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                           OIG-IR-01-01


Staff Comments on Question No. 18

Ø Actually, we do well here!

Ø IT is being used-is best use achieved? I don’t know.

Ø Current employees are making great strides in this area.

Ø But could use an in-house “users” club/meetings to share knowledge.

Ø There are individual managers who do this, but generally not.

Ø Commission researchers make extensive use of IT systems, thought skill levels vary. IT systems
  used in PE studies represent major advances. One area where IT advances are needed is in the
  administrative area, and I believe work has begun in this area. In particular, the T&A system is in
  need of improvement, both on input and output sides.

Ø Hard to tell. IT is being provided and being used but, from my viewpoint, it’s unclear that we’re
  getting “best use.”

Ø Answering from my office perspective. Certainly there is room for improvement here, but
  employees in the office are making good use of IT resources to do their work and share
  information in the office.

Ø My sense is the Commission has invested only spottily in this area. Most employees are not
  aware of how IT, and/or new developments in IT, can help them on the job. Many Commission
  employees have been here for a long time and are not very aware of alternatives in the IT area-
  only what they see here at work. They generally use what’s here well-but they don’t have a
  particularly effective environment.

Ø They certainly have the equipment to do so.

Ø The extent to which IT can increase efficiency varies by office. Generally ITC has been
  progressive in acquiring technology, poor in implementing its use in some circumstances.

Ø If anything, ITC is ahead of the government generally in employing technology.




                                                 A-36                        Office of Inspector General
                                                                     U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                          OIG-IR-01-01




19.     Inclusiveness. Does the Commission maintain an environment characterized by inclusiveness
and a variety of styles and personal backgrounds and that is responsive to the needs of diverse groups
of employees?



                                                                 Staff Responses to Question No. 19


                                           25                                                               22
                        No. of Responses


                                           20

                                           15
                                                                                                                            11
                                           10                                                   7

                                            5                                   3
                                                                  1
                                                     0
                                            0
                                                No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                       completely)

                                                                                    Responses




OIG Findings…

    •   The Commission does have a written affirmative action policy or discussion of inclusiveness
        in the agency’s human capital plan or other documents.

    •   The Commission does provide training for staff in team building and conflict avoidance and
        resolution.

    •   The recent OPM survey has provided employee feedback on the acceptance and
        encouragement of diverse styles and personal backgrounds in the workplace, as well as on
        perceptions of unequal treatment.

    •   The Commission does compile statistics on grievances and EEO complaints and findings over
        time.

    •   The Commission does have in place an alternative dispute resolution (ADR) program that
        draws upon internally or externally based ombudsmen, mediators or other trained neutrals to
        help resolve workplace conflicts and lessen the incidence of formal cases, i.e., grievances,
        discrimination complaints, and appeals to ad judicatory agencies of new cases and the time
        needed to resolve them.




                                                                           A-37                                     Office of Inspector General
                                                                                                            U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                        OIG-IR-01-01


Staff Comments on Question No. 19


Ø Except, much is done on favoritism-no office meetings so work is handed out to favorites of
  senior managers.

Ø This is an area that can be improved.

Ø We have established a diverse workforce and strive for inclusiveness.

Ø Commission tries to provide such an environment, but our success in achieving it is no doubt
  viewed differently according to the “group” you happen to be in.

Ø Although non-professionals desire greater chance for advancement/professional development; and
  some professionals do not feel their contributions are actively sought/desired.




                                                 A-38                     Office of Inspector General
                                                                  U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                                                                          OIG-IR-01-01


20.    Employee and labor relations. Are relations between the Commission's workforce and its
management grounded in a mutual effort to achieve the Commission's shared vision?



                                                                 Staff Responses to Question No. 20


                                           35
                                                                                                            29
                                           30
                        No. of Responses   25
                                           20
                                           15
                                           10                                                   7
                                                                                3                                            4
                                            5                     1
                                                     0
                                            0
                                                No Response   Not At All   Generally Not   Partially   Generally Yes   Definitely (or
                                                                                                                       completely)

                                                                                    Responses




OIG Findings…

    •   The Commission does receive feedback from employees through Union representatives on
        their commitment to the agency’s shared vision and their views of management’s efforts at
        communication and coordination.

    •   The Commission does have a collective bargaining agreement that facilitates feedback from
        managers, union representatives, and other employees on the extent to which they agree on
        the agency’s shared vision and the means of achieving it, and the extent to which they work
        together to resolve problems and conflicts fairly and effectively.




                                                                           A-39                                     Office of Inspector General
                                                                                                            U.S. International Trade Commission
Appendix I - Self Assessment of the Commission’s Human Capital                           OIG-IR-01-01


Staff Comments on Question No. 20


Ø I think good relations between union and management.

Ø But workforce could benefit from additional interactive sessions with management.

Ø But there are also exceptions based on individual attitudes.

Ø When it comes to substantive issues, I would say definitely; on workplace issues less so.

Ø There is a general desire/commitment to do one’s best and make a serious contribution to the
  work of the agency-but there is a disconnect in how these might contribute to furthering a “shared
  vision,” or even recognizing that one exists.

Ø I think there have been attempts at improvement lately, but there’s a lot of lingering distrust and
  ill will to work past.




                                                 A-40                        Office of Inspector General
                                                                     U.S. International Trade Commission
             Appendix II
Director of Personnel’s Response to Draft Report
